Audit Report

Compliance with Standards Governing
Combined DNA Index System Activites at the State of Connecticut
Forensic Science Laboratory, Meriden, Connecticut

Audit Report GR-70-05-011


April 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of compliance with standards governing Combined DNA Index System (CODIS) activities at the State of Connecticut Forensic Science Laboratory (Laboratory).1   The Federal Bureau of Investigation (FBI) began the CODIS Program as a pilot project in 1990.  The DNA Identification Act of 1994 (Public Law 103-322) formalized the FBIs authority to establish a national DNA index for law enforcement purposes.  The Act specifically authorized the FBI to establish an index of DNA identification records of persons convicted of crimes, and analyses of DNA samples recovered from crime scenes.  The Act further specified that the index include only DNA information that is based on analyses performed in accordance with standards issued by the FBI.

The FBI implemented CODIS as a distributed database with three hierarchical levels that enables federal, state, and local crime laboratories to compare DNA profiles electronically.  The National DNA Index System (NDIS) is the highest level in the CODIS hierarchy and enables the laboratories participating in the CODIS Program to compare DNA profiles on a national level.  The NDIS became operational in 1998 and is managed by the FBI as the nations DNA database containing DNA profiles uploaded by participating states.  DNA profiles originate at the local level, flow to the state and national levels, and are compared to determine if a convicted offender can be linked to a crime, or if crimes can be linked to each other.

The FBI provides CODIS software free of charge to any state or local law enforcement laboratory performing DNA analysis.  A laboratorys profiles have to be uploaded to the NDIS before the profiles benefit the system as a whole.  Before a laboratory is allowed to participate at the national level a Memorandum of Understanding (MOU) must be signed between the FBI and the applicable state laboratory.  The MOU defines the responsibilities of each party, includes a sublicense for the use of the CODIS software, and delineates the standards laboratories must meet in order to utilize the NDIS.2
The objective of the audit was to determine if the Laboratory was in compliance with standards governing CODIS activities.  Specifically, we performed testing to determine if the:  1) Laboratory was in compliance with the NDIS participation requirements; 2) Laboratory was in compliance with the quality assurance standards issued by the FBI; and 3) Laboratorys DNA profiles in CODIS databases were complete, accurate, and allowable.

We determined that the Laboratory complied with the standards governing CODIS activities with some exceptions.  Specifically, we noted the following exceptions. 

We tested ten cases where the CODIS software indicated a candidate match between a known or unknown perpetrator and crime scene evidence.  We found that, in six of the ten candidate matches we tested, laboratory officials did not resolve matches within the timeframe established by the NDIS standards.3
We found the Laboratory did not receive an annual evaluation for the year 2004.  The NDIS standards require laboratories to receive evaluations annually.

	We tested 100 convicted offender and 100 forensic profiles and found 1 profile was inaccurate because the Laboratory did not load the correct specimen number into the NDIS. 

Our recommendations to improve the Laboratorys compliance with the NDIS standards are discussed in detail in the Findings and Recommendations section of this report.  Our audit scope and methodology are detailed in Appendix I of the report and the audit criteria are detailed in Appendix II.

We discussed the results of our audit with Laboratory officials and we have included their comments in the report as applicable.  In addition, we requested a written response to a draft of our audit report from the FBI and the Laboratory.  In its response, the Laboratory agreed with our findings and recommendations.  The Laboratory:  1) noted that additional personnel hired by the lab should help to resolve all future candidate matches in a timely manner, and 2) acknowledged that it did not complete an annual evaluation in 2004.  The Laboratory scheduled its next external evaluation in March 2005.4   In its response the FBI said it was reviewing both recommendations and requesting additional information from the Laboratory.  Referring to our first recommendation, the FBI noted that it is revising the candidate match procedure to require laboratories to make a good faith effort to resolve its matches within 30 days.  The Laboratorys and the FBIs comments are included in the report as Appendices III and IV, respectively.

   



Footnotes

DNA, deoxyribonucleic acid, is genetic material found in almost all living cells that contains encoded information necessary for building and maintaining life.  Approximately 99.9 percent of human DNA is the same for all people.  The differences found in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification characteristics (a DNA profile) for an individual by analyzing a specimen that contains DNA.
	
	These standards were appended to the MOU as Appendix C - NDIS Procedure Manual.  This manual is comprised of several operational procedures that provide specific instructions for laboratories to follow for procedures pertinent to NDIS.  For our purposes, the NDIS participation requirements consist of the MOU and the NDIS operational procedures.
	
	Resolution of a candidate match occurs when a laboratory refutes or confirms that a candidate match is a valid match.    
		
	
	The CODIS Administrator subsequently confirmed that the Laboratory completed its annual evaluation in March 2005.